      Department of Homeland Security



           U.S. Coast Guard’s Maritime Patrol Aircraft




OIG-12-73 (Revised)                                August 2012
August 31, 2012

                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                        August 31, 2012

                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report addresses whether the United States Coast Guard effectively awarded the
2010 Ocean Sentry Maritime Patrol contract. It is based on interviews with employees
and officials of relevant agencies and institutions, direct observations, and a review of
applicable documents.

The recommendation herein has been developed to the best knowledge available to our
office, and has been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.


                                      Anne L. Richards
                                      Assistant Inspector General for Audits
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Audit ...................................................................................................................3


     Additional Follow up Needed on Prior Subcontractor Deficiencies .............................3 


Other Reportable Matters.....................................................................................................5


     Delay in Initiating Equipment Modification ..................................................................5 


     Guidance for One-Bid Contracts ...................................................................................6 


Recommendation .................................................................................................................7


Management Comments and OIG Analysis ........................................................................7 


Appendices
     Appendix A:           Purpose, Scope, and Methodology.........................................................9 

     Appendix B:           Management Comments to the Draft Report .......................................11 

     Appendix C:           Major Contributors to this Report........................................................13 

     Appendix D:           Report Distribution ..............................................................................14 


Abbreviations
     DCAA      Defense Contract Audit Agency 

     DHS       Department of Homeland Security 

     EADS CASA European Aeronautic Defense and Space Company/ 

                 Construcciones Aeronáuticas Sociedad Anónima
     EADS NA   European Aeronautic Defense and Space Company North America
                 Company

     FAR       Federal Acquisition Regulation

     FY        fiscal year           

     HC-144A   Ocean Sentry Maritime Patrol Aircraft 

     OIG       Office of Inspector General 

     USCG      United States Coast Guard 

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                The Ocean Sentry Maritime Patrol Aircraft is a medium-range
                surveillance aircraft purchased by the United States Coast Guard to
                replace its aging HU-25 Falcon fleet. In July 2010, the United
                States Coast Guard awarded its latest contract to the European
                Aeronautic Defense and Space Company North America for three
                aircraft with a value of about $117 million, excluding any option
                periods. The United States Coast Guard has taken delivery of 13
                HC-144A aircraft since the program began in 2003. We performed
                this audit to determine whether the United States Coast Guard
                effectively awarded the 2010 Ocean Sentry Maritime Patrol
                Aircraft contract.

                The United States Coast Guard generally awarded the Ocean
                Sentry Maritime Patrol Aircraft contract effectively. However, it
                could have improved its oversight of the contract. The United
                States Coast Guard was aware of extensive work and conclusions
                made by the Defense Contract Audit Agency regarding the
                presence of non-chargeable costs and noncompliance with the
                Federal Acquisition Regulation by the subcontractor, European
                Aeronautic Defense and Space Company/Construcciones
                Aeronáuticas Sociedad Anónima. Despite this knowledge, United
                States Coast Guard personnel did not follow up with the
                subcontractor to ensure that it had implemented recommendations
                made by the Defense Contract Audit Agency and did not obtain
                sufficient support to ensure the exclusion of non-chargeable costs
                when awarding the current contract. The Coast Guard partially
                concurred with our recommendation to improve the award and
                oversight of this acquisition and future acquisitions.




                    U.S. Coast Guard’s Maritime Patrol Aircraft

                                      Page 1
Background
             In 2003, the United States Coast Guard (USCG) contracted with
             Integrated Coast Guard Systems to procure the initial Ocean Sentry
             Maritime Patrol Aircraft (HC-144A). Originally, as part of the
             Integrated Deepwater Program, the USCG procured the HC-144A
             to replace its aging HU-25 Falcon aircraft with 36 aircraft by 2025.
             The HC-144A is the largest aircraft acquisition program in the
             USCG’s Acquisition Directorate. The USCG received its first
             HC-144A in December 2006 and to date has accepted delivery of
             13 aircraft.

             Following multiple congressional hearings, audit reports, and
             investigations, the USCG ended its contractual relationship with
             Integrated Coast Guard Systems and became the lead systems
             integrator for the HC-144A program in January 2011. The USCG
             issued the current firm fixed-price HC-144A contract to European
             Aeronautic Defense and Space Company North America (EADS
             NA) in July 2010 for aircraft numbers 12, 13, and 14. EADS NA
             issued a subcontract to European Aeronautic Defense and Space
             Company/Construcciones Aeronáuticas Sociedad Anónima (EADS
             CASA), the original equipment manufacturer.




              Photo of a HC-144A. Source: USCG.

             The USCG’s Acquisition, Construction, and Improvements budget
             was about $1.3 billion for fiscal year (FY) 2010. The USCG
             budgeted about $299 million for its aviation department, and about
             $138.5 million for the HC-144A program. The USCG awarded the
             2010 HC-144A base contract, excluding any option periods, for

                 U.S. Coast Guard’s Maritime Patrol Aircraft

                                   Page 2
                   about $117 million. According to the USCG’s FY 2012
                   Congressional Justification, the total cost for the HC-144A
                   program, through aircraft number 11, was about $795.1 million.
                   We conducted this audit to determine whether the USCG
                   effectively awarded the 2010 HC-144A contract.

Results of Audit
     The USCG generally awarded the HC-144A contract effectively. It followed
     federal regulation, Department, and USCG guidance when awarding the 2010
     HC-144A contract. With one proposal received for the HC-144A solicitation, the
     USCG worked to ensure that the proposal went through the award process
     correctly. It standardized the HC-144A fleet to meet mission needs, appointed a
     source selection organization to oversee and approve the process, and obtained
     Department-level approval for its actions when required.

     However, the USCG could have improved the oversight of the 2010 HC-144A
     contract. It was aware of extensive work and conclusions by the Defense
     Contract Audit Agency (DCAA) regarding the presence of non-chargeable costs
     and non-compliance with the Federal Acquisition Regulation (FAR) by EADS
     CASA. Despite this knowledge, USCG personnel did not follow up with EADS
     CASA to ensure that it had implemented recommendations made by DCAA and
     did not obtain sufficient support to ensure that non-chargeable costs were
     excluded when awarding the current HC-144A contract.

     Additional Follow up Needed on Prior Subcontractor Deficiencies
            The USCG should have conducted more follow up on deficiencies noted
            by the DCAA relating to EADS CASA and its accounting systems. The
            contract file did not contain sufficient documentation for USCG personnel
            to ensure that the subcontractor calculated all costs correctly. However,
            USCG personnel determined that the contractor’s price proposal met the
            requirements of the proposal evaluation plan and that price risk was not an
            evaluation factor. Although the USCG performed additional steps
            regarding price risk, such as comparison of proposed prices to historical
            prices, USCG personnel determined that the risk identified was not
            significant. USCG personnel could have followed up with DCAA on the
            status of prior report recommendations regarding noncompliance with the
            FAR.

            We reviewed eight reports issued by DCAA between February 2004 and
            April 2010 on EADS CASA. The multiple DCAA reports identify
            numerous instances between 2004 and 2010 where EADS CASA included
            non-chargeable costs and costs that did not comply with FAR Part 31 in its
            cancellation and price proposals. FAR Part 31.205 identifies 18 costs that
            are generally non-chargeable in federal government contracts, such as
                        U.S. Coast Guard’s Maritime Patrol Aircraft

                                          Page 3
                                           interest, costs for bad debts, and advertising. Non-compliance with FAR
                                           Part 31 occurs when contractors do not follow its guidelines when
                                           determining whether costs are allowable, reasonable, and allocable when
                                           calculating costs.

                                           DCAA provided detailed analyses and conclusions in its audit reports.
                                           Table 1 summarizes the non-chargeable costs and costs not in compliance
                                           with FAR Part 31, as identified in DCAA audit reports.

        Table 1
                                                                                         DCAA Report Analysis
                                                                        #1       #2       #3       #4        #5       #6        #7       #8      FAR Reference
                                                                       Feb-04   Nov-06   Oct-07   Aug-09   *Jan-10   Aug-09   *Jan-09   Apr-10
         Non-chargeable




                                         Advertising costs                        x                                                               FAR 31.205-1
                                         Bad Debts                                x                                                               FAR 31.205-3
              Cost




                                         Independent Research            x        x                                                              FAR 31.205-18(d)
                                         Interest                                 x                                                               FAR 31.205-20
                                         Travel Costs (in excess)        x        x        x                           x         x        x      FAR 31.205-46(b)
                                         Determining Allowability                          x        x         x        x         x        x       FAR 31.201-2
                                         Determining Reasonableness                                                    x         x        x       FAR 31.201-3
                                         Determining Allocability
            Non Complaince with FAR 31




                                                                                                                       x         x        x       FAR 31.201-4
                                         Credits                                                                       x         x        x       FAR 31.201-5
                                         Accounting for Unallowable
                                         Costs                                             x        x         x        x         x        x       FAR 31.201-6
                                         Direct Costs                                      x                           x         x        x        FAR 31.202
                                         Indirect Costs                                    x                                                       FAR 31.203
                                         Cost of Money                                                                 x         x        x       FAR 31.205-10
                                         Precontract Costs                                                             x         x        x       FAR 31.205-32
                                         Professional and Consultant
                                         Service Costs                                              x         x        x         x        x       FAR 31.205-33
                                         Costs related to Legal and
                                         Other Proceedings                                                             x         x        x       FAR 31.205-47
        Source: DHS OIG. 

        *Supplemental Report.


                                           In one audit report,1 DCAA concluded that about $11,019,750 of the total
                                           $154,884,795 proposal costs were questionable and about $269,129 were
                                           unsupported. In another audit report,2 DCAA noted deficiencies with
                                           timekeeping, living expenses, travel costs, cost of money, and the
                                           inclusion of other non-chargeable costs. In that report, DCAA also
                                           detailed that Airbus Military, a business unit of EADS CASA, incorrectly
                                           included costs in its proposals. For example, employees’ timesheet entries
                                           recorded amounts greater than a normal working day because of EADS
                                           CASA’s inadequate internal controls over its timekeeping system. One
                                           employee charged what appeared to be 1 full week (45.08 hours) to 1 day.
                                           DCAA determined that there was a significant risk of potential labor
                                           overcharges because employees may work on multiple contracts and

1
  DCAA Report 2191-2006F21000003, EADS CASA Subcontract Proposal for Aircraft 4 and 5 on the 

Deepwater Program, dated November 2006.

2
  DCAA Report 2191-2009H24020001, Estimating System Deficiencies Disclosed During Evaluation of 

Termination Settlement Proposals Dated May 22, 2009, dated April 2010. 


                                                             U.S. Coast Guard’s Maritime Patrol Aircraft

                                                                                  Page 4
           projects, but do not record the labor hours on a daily basis. EADS CASA
           had policies and procedures to address daily timekeeping; however, EADS
           CASA stated that it never implemented them.

           DCAA recommended that the management of EADS CASA take
           immediate action to ensure that future comprehensive price proposals
           comply with FAR Part 31. EADS CASA concurred with the report’s
           conclusions and acknowledged certain deficiencies in its estimating and
           accounting systems. However, according to DCAA, EADS CASA’s audit
           response was not fully responsive to the report’s recommendations.
           DCAA stated that EADS CASA’s decision not to implement timekeeping
           procedures until the award of a cost-based contract with the U.S.
           government would continue to prevent the determination of the validity
           and reliability of recorded labor hours used as a basis for future labor
           estimates.

           USCG personnel acknowledged EADS CASA’s response to the DCAA
           findings in their contract file documentation; however, there was no
           documentation to show that USCG personnel took the necessary steps to
           ensure that EADS CASA implemented any corrective action. With only
           2 months between the issuance of DCAA’s audit report and the award of
           the current HC-144A contract, EADS CASA did not have enough time to
           make the recommended changes before entering into another U.S.
           government contract.

           The multiple DCAA reports demonstrate that EADS CASA included non­
           chargeable costs and costs not calculated in accordance with federal
           regulation in prior contracts. The USCG could have conducted additional
           follow up, such as verifying that the subcontractor addressed the DCAA
           report recommendations, which would have provided the USCG more
           assurance that the contractor and subcontractor did not include costs not
           allowed per the FAR.

Other Reportable Matters

     Delay in Initiating Equipment Modification
           The USCG awarded the current HC-144A contract with equipment known
           not to meet operational requirements, such as launch and arrival time,
           radar detection capability, and sensor performance. USCG personnel were
           aware of the equipment problems at least 14 months before they awarded
           the 2010 HC-144A contract.

           Operational Assessments identify system enhancements and significant
           areas of risk to the program’s successful completion. The Operational
           Assessment dated May 2009 revealed operational problems with certain

                      U.S. Coast Guard’s Maritime Patrol Aircraft

                                        Page 5
     equipment on the HC-144A. In December 2009, the sponsoring unit for
     the HC-144A made a recommendation to the USCG’s Acquisition
     Directorate to stop further purchase of the equipment and perform
     additional analysis. In March 2010, the program manager also
     recommended that the USCG stop purchase of the equipment. Despite
     these recommendations, USCG personnel stated they could not make any
     changes without the Executive Oversight Council’s approval. The USCG
     continued to follow its existing procedures by issuing the solicitation in
     April 2010 and awarding the contract with this equipment in July 2010.
     USCG personnel did not take action to stop the purchase of the equipment
     or remove this equipment until October 2010. The USCG’s Executive
     Oversight Council did not approve the removal of this equipment until
     later in October 2010.

     Although the USCG identified these issues early in the acquisition
     process, it did not take the necessary steps to ensure that the contract
     excluded this equipment. The USCG has now amended the contract twice
     to address this equipment problem. Removing the equipment will
     decrease the cost by about $400,000 per aircraft, or a total of about
     $1.2 million for aircrafts 12, 13, and 14. However, according to USCG
     personnel, the USCG will incur additional costs for updating the technical
     designs, reconfiguration costs, aircraft recertification costs, and about
     $57,000 for labor costs just to remove this equipment. Until the USCG
     selects a replacement for this equipment, the total financial impact to the
     HC-144A program cannot be determined.

Guidance for One-Bid Contracts
     DHS has issued additional procedures to promote full and open
     competition when the Department and its components award contracts
     based on receipt of only one proposal for a competitively issued
     solicitation. DHS’ Chief Procurement Officer issued a memorandum,
     Procedures for Improved Competition, dated February 2011, which
     provides historical data and additional procedures for awarding one-bid
     contracts over $700,000.

     The USCG issued a Chief of Contracting Office Alert, 11-20, New DHS
     Procedures for competitive negotiated contacts where only one offer is
     received, dated February 23, 2011, to communicate the Department’s
     process change requirements and direct immediate adherence to the
     procedures. As of October 2011, the USCG has not created any
     component-level guidance to follow when awarding a contract that
     receives only one proposal. During the audit, USCG personnel stated that
     they were in the process of creating USCG-level guidance to address this
     area. However, at the end of the audit, USCG personnel informed us that


                 U.S. Coast Guard’s Maritime Patrol Aircraft

                                   Page 6
the Chief of Contracting Office Alert, 11-20, is the only guidance USCG
will issue.

We believe that it may be beneficial for the USCG to issue additional
specific component-level guidance for its contracting officers to follow
when awarding contracts for which only one proposal is received.

Recommendation
       We recommend that the Assistant Commandant for Acquisitions,
       USCG:

       Recommendation #1: Ensure that the subcontractor has
       satisfactorily addressed and implemented DCAA report
       recommendations.

Management Comments and OIG Analysis
       The USCG provided comments on the draft of this report. A copy
       of the comments in their entirety is included in appendix B. The
       USCG also provided technical comments and suggested revisions
       to our report in a separate document. We reviewed the USCG’s
       technical comments and made changes throughout our report
       where appropriate, but have not included the actual comments in
       this report.

       Management Comments to Recommendation #1

       Partially Concur. The USCG agreed with the spirit of the
       recommendation. The USCG agreed that for sole source contract
       actions, it is imperative that the USCG give full consideration to
       the findings in the DCAA audit report. However, the USCG
       maintains that actions taken to award the initial HC-144A contract
       were in accordance with applicable regulations.

       The USCG maintains that it was not required to, and therefore did
       not, obtain certified cost or pricing data and did not perform cost
       analysis in accordance with FAR 15.404-1(a). The Scope of FAR
       Part 31 contains cost principles and procedures for the pricing of
       contracts, subcontracts, and modifications to contracts and
       subcontracts whenever cost analysis is performed. Therefore, the
       DCAA audit findings were not relevant to award of this contract or
       to the exercising of options 2, 3, or 4 for contract HSCC23-10-C­
       2DA020.



            U.S. Coast Guard’s Maritime Patrol Aircraft

                              Page 7
OIG Analysis. As discussed in our report, the USCG was aware
of extensive work conducted and conclusions made by the DCAA
regarding the presence of non-chargeable costs and non­
compliance with the FAR by EADS CASA. Whether a contract is
sole source or competed should not determine whether USCG
personnel give full consideration to previous report findings
regarding the inclusion of non-chargeable costs by EADS CASA.
FAR Part 15.403-1(b) allows the contracting officer to require data
other than certified cost or pricing data, which include types of
data identical to certified cost or pricing data without the
certification. Therefore, the USCG could have obtained
information to ensure that the subcontractor calculated all costs
correctly.

The DCAA report findings show that EADS CASA included non­
chargeable costs for more than 5 years, from 2004 to 2010.
According to a USCG employee, the discounts given for the 2010
HC-144A contract would have outweighed any non-chargeable
costs that EADS CASA could have included in its cost. Although
USCG personnel used price analysis when evaluating the 2010
HC-144A contract, it did not preclude them from ensuring that
EADS CASA addressed DCAA’s report recommendations prior to
contract award. FAR Part 15.403-3(b) states that when there are
unusual circumstances where it is concluded that additional data
are necessary to determine the reasonableness of price, the
contracting officer shall, to the maximum extent practicable, obtain
additional data from sources other than the offeror. We believe
that the numerous DCAA reports and findings warranted an
unusual circumstance that should have caused the contracting
officer to obtain additional information from sources other than the
offeror. The price analysis techniques the contracting officer
applied included information from the offeror to determine price
reasonableness.

We modified our recommendation to ensure that the USCG will
meet its mission needs and not delay further production of the
HC-144A aircraft in production, but addressing the EADS CASA
issues noted by DCAA should be a priority.




    U.S. Coast Guard’s Maritime Patrol Aircraft

                      Page 8
Appendix A
Purpose, Scope, and Methodology

                   We initiated this audit to determine whether the USCG effectively
                   awarded the 2010 HC-144A contract. To achieve our objective,
                   we reviewed the HSCG23-10-C-2DA020 contract file and its
                   supporting documentation. We also reviewed federal regulation,
                   DHS policies, DHS USCG FY 2012 Congressional Justification,
                   and USCG guidance. We interviewed DHS officials in the Office
                   of the Chief Procurement Officer and USCG officials in the
                   Acquisition Directorate, Intelligence and Criminal Investigations
                   Directorate, Capability Directorate, and the Office of Planning,
                   Resources, and Procurement. We conducted onsite work at USCG
                   headquarters in Washington, DC.

                   We relied on computer-processed data provided by the USCG for
                   program costs and one-bid contract data provided by DHS from the
                   Federal Procurement Data System-Next Generation. We did not
                   perform any internal control testing of this information, as it was
                   not the basis for our report findings and recommendations. To
                   minimize costs and avoid duplication of work, we did not conduct
                   an analysis of accounting and cost documents because those
                   documents were located in Barcelona, Spain.

                   To accomplish our objective, we relied on the body of work
                   already conducted by DCAA, and on the audit findings and
                   conclusions in DCAA’s published reports. Two of these reports
                   contained modified generally accepted government auditing
                   standards statements. We did not review DCAA’s work, audit
                   plans, or audit documentation, nor did we perform tests of
                   DCAA’s work.

                   We conducted this performance audit between May 2011 and
                   November 2011 pursuant to the Inspector General Act of 1978, as
                   amended, and according to generally accepted government
                   auditing standards (GAGAS), except that we identified an
                   impairment to our independence in appearance. Following
                   completion of our audit, it came to our attention that a family
                   member of a senior OIG official was employed by an entity
                   associated with this audit. We took steps to re-evaluate the
                   evidence supporting our findings and conclusions. In our opinion,
                   the impairment to our independence in appearance did not affect
                   the findings and conclusions developed during this audit.

                   GAGAS requires that we plan and perform the audit to obtain
                   sufficient, appropriate evidence to provide a reasonable basis for
                   our findings and conclusions based upon our audit objectives. We
                   believe that the evidence obtained provides a reasonable basis for

                       U.S. Coast Guard’s Maritime Patrol Aircraft

                                         Page 9
Appendix A
Purpose, Scope, and Methodology

                   our findings and conclusions based upon our audit objectives, and
                   that the impairment to our independence in appearance did not
                   affect this evidence or any findings and conclusions.

                   We appreciate the assistance and cooperation of USCG personnel
                   throughout this audit.




                       U.S. Coast Guard’s Maritime Patrol Aircraft

                                        Page 10
Appendix B
Management Comments to the Draft Report




                      U.S. Coast Guard’s Maritime Patrol Aircraft


                                       Page 11

Appendix B
Management Comments to the Draft Report




                      U.S. Coast Guard’s Maritime Patrol Aircraft


                                       Page 12

Appendix C
Major Contributors to this Report

                    Brooke Bebow, Audit Director
                    Linda Howard, Audit Director
                    LaParacina Williams, Lead Audit Manager
                    Andrea Rambow, Audit Manager
                    Tiffany Bellinger, Auditor
                    Thomas Bobrowski, Program Analyst
                    Victoria Phan, Program Analyst
                    Cory Upmeyer, Program Analyst
                    Marissa Weinshel, Program Analyst
                    Maureen Duddy, Referencer




                        U.S. Coast Guard’s Maritime Patrol Aircraft

                                         Page 13
Appendix D
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      United States Coast Guard

                      Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                          U.S. Coast Guard’s Maritime Patrol Aircraft


                                           Page 14

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
